   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




July 27, 2010

TO:             Mary Wakefield, Ph.D., R.N.
                Administrator
                Health Resources and Services Administration


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review of Great Brook Valley Health Center, Inc.’s
                Process for Compiling and Reporting Recovery Act Data (A-01-10-01503)


Attached, for your information, is an advance copy of our final report on Great Brook Valley
Health Center, Inc (Great Brook). We will issue this report to Great Brook within 5 business
days. The review was requested by the Recovery Accountability and Transparency Board.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-01-10-01503 in all correspondence.

Attachment
       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
July 28, 2010

Report Number: A-01-10-01503

Ms. Antonia G. McGuire, RN, MPH
President and CEO
Great Brook Valley Health Center, Inc.
2000 Century Drive
Worcester, MA 01606

Dear Ms. McGuire:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Results of Limited Scope Review of Great Brook Valley
Heath Center, Inc.’s Process for Compiling and Reporting Recovery Act Data. We will forward
a copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-10-01503 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Antonia G. McGuire


Direct Reply to HHS Action Official:

Sandy Seaton
Health Resources and Services Administration
Office of Federal Assistance Management/Division of Financial Integrity
Rm 11A-55, Parklawn Bldg.
Rockville, MD 20857
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
   REVIEW OF GREAT BROOK
VALLEY HEALTH CENTER, INC.’S
 PROCESS FOR COMPILING AND
REPORTING RECOVERY ACT DATA



                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-01-10-01503
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

To promote transparency and accountability, section 1512 of the Recovery Act requires each
recipient of Recovery Act funds to report on its use of funds to the applicable Federal agency not
later than 10 days after the end of each calendar quarter. The reports should include, among
other things, the total amount of Recovery Act funds received, the amount that was spent or
obligated, and the number of jobs created or retained with Recovery Act funds.

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health Center
Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C. § 254(b). Within
HHS, the Health Resources and Services Administration (HRSA) administers the Health Center
Program. Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009,
including $2 billion to expand the Health Center Program to serve more patients, stimulate new
jobs, and meet the significant increase in demand for primary health care services among the
Nation’s uninsured and underserved populations.

Great Brook Valley Health Center, Inc. (Great Brook), is a nonprofit corporation organized in
1972 to provide medical, dental, nutrition, and mental health services. Great Brook is funded
primarily through HRSA grants, Medicaid, Medicare, State grants, and third-party payors.
During FY 2009, HRSA awarded Great Brook a 2-year Recovery Act grant totaling $417,643 for
increases in health care services at its existing sites.

Our review covered recipient data submitted during the second and third reporting periods. The
second reporting period covered October 1 through December 31, 2009, and the third reporting
period covered January 1 through March 31, 2010.

OBJECTIVE

Our objective was to determine whether Great Brook’s processes for compiling and reporting
selected data provided reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.

SUMMARY OF FINDINGS

Great Brook’s processes for reporting the selected data elements in the second and third
reporting periods generally provided reasonable assurance that it complied with section 1512


                                                 i
requirements of the Recovery Act. Specifically, Great Brook accurately reported funds
expended, project status, and the final project report indicator. However, Great Brook:

   •   overstated the number of jobs created by 10.71 full-time equivalents (FTE) in the second
       reporting period by inappropriately counting individuals partially funded by the grant as
       full FTEs;

   •   miscalculated its jobs number by 0.79 FTE in the third reporting period by inconsistently
       applying fringe benefit costs in the jobs calculation; and

   •   understated funds received by $113,045 in the third reporting period by reporting on a
       quarterly basis instead of cumulatively.

These deficiencies occurred because Great Brook did not use the most recent edition of the
HRSA’s Health Center Quarterly Reporting Manual (the reporting manual). Specifically, Great
Brook used the second edition of the reporting manual (September 14, 2009) instead of using the
third edition (December 1, 2009; updated December 29, 2009). The reporting errors could have
resulted in the public being misled or confused by Great Brook’s use of Recovery Act funds.

RECOMMENDATIONS

We recommend that Great Brook:

   •   establish and implement written policies and procedures in compiling and reporting of
       Recovery Act data elements,

   •   follow current HRSA guidance that incorporates Office of Management and Budget
       reporting guidance, and

   •   ensure that similar errors are not made in subsequent reporting periods.

GREAT BROOK’S COMMENTS

In written comments on our draft report, Great Brook indicated that it will comply with our
recommendations. Great Brook’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              American Recovery and Reinvestment Act ...................................................1
              Section 1512 Reporting Requirements ..........................................................1
              Office of Management and Budget Implementing Guidance ........................1
              Health Resources and Services Administration .............................................2
              Great Brook Valley Health Center, Inc. .......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          DATA ELEMENTS REPORTED .............................................................................4
               Recovery Act Reporting Requirements .........................................................4
               Data Elements Accurately Reported ..............................................................5
               Data Elements Inaccurately Reported ............................................................5
               Conclusion .....................................................................................................6

          RECOMMENDATIONS ...........................................................................................7

          GREAT BROOK’S COMMENTS .........................................................................7

APPENDIX

          GREAT BROOK’S COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

Section 1512 Reporting Requirements

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. A recipient
includes any non-Federal entity, other than an individual, that receives Recovery Act funds
directly from the Federal Government. Section 1512 reporting requirements apply mainly to
recipients of grants, contracts, and loans for discretionary programs. Section 1512(c) requires
each recipient to report to the applicable Federal agency not later than 10 days after the end of
each calendar quarter:

    •   the total amount of Recovery Act funds received and the amount that was expended or
        obligated;

    •   a detailed list of all projects for which Recovery Act funds were expended or obligated,
        including the project name, description, and completion status and an estimate of the
        number of jobs created or retained; and

    •   detailed information on payments to subrecipients and vendors. 1

Office of Management and Budget Implementing Guidance

To implement section 1512 of the Recovery Act, on June 22, 2009, OMB issued memorandum
M-09-21, which requires recipients to report detailed information on their projects. 2 This
guidance applies to recipients of grants, loans, tribal agreements, cooperative agreements, and


1
  A vendor is a dealer, distributor, merchant, or other seller providing goods or services for a Federal program. A
recipient or subrecipient may purchase from vendors those goods or services needed to carry out a project (Office of
Management and Budget (OMB) memorandum M-09-21, section 2.2, p. 7 (June 22, 2009)).
2
  Section 3.1 of M-09-21 requires that the information reported by recipients and subrecipients of Recovery Act
funds be submitted through www.federalreporting.gov, reviewed by the funding agency, and published on
www.recovery.gov. Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed
in Supplement 1 of M-09-21.

                                                         1
other forms of assistance. During the second reporting period, October 1 through December 31,
2009, OMB updated its guidance (memorandum M-10-08) to incorporate lessons learned from
the first reporting period (ended September 30, 2009) and address recommendations of the
Government Accountability Office. The update simplified the manner in which job estimates are
calculated and reported. Specifically, recipients now report job estimates on a quarterly, rather
than a cumulative basis; all other data elements are still reported cumulatively. Recipients are no
longer required to sum various data on hours worked across multiple quarters of data when
calculating job estimates. In addition, recipients are no longer required to make a subjective
judgment on whether jobs were created or retained as a result of the Recovery Act.

Health Resources and Services Administration

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within HHS, the Health
Resources and Services Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations, including migrant and seasonal farm workers, the
homeless, residents of public housing. Health centers funded by HRSA are community based,
patient-directed organizations that meet the definition of “health center” under 42 U.S.C §
254(b).

Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009, including
$2 billion to expand the Health Center Program to serve more patients, stimulate new jobs, and
meet the significant increase in demand for primary health care services among the Nation’s
uninsured and underserved populations.

On December 29, 2009, HRSA issued the updated third edition of the Health Center Quarterly
Reporting Manual (the reporting manual), which incorporates OMB’s revised guidance. The
reporting manual provides guidance to assist recipients in the reporting of section 1512 Recovery
Act data elements. In addition, the reporting manual requires recipients to report on a limited
number of health center program performance elements to allow HRSA to report on and
demonstrate the impact of health center activities funded under the Recovery Act. To further
assist recipients in reporting Recovery Act data elements, HRSA holds a quarterly technical
conference call that addresses reporting requirements.

Great Brook Valley Health Center, Inc.

Great Brook Valley Health Center, Inc. (Great Brook), is a nonprofit corporation organized in
1972 to provide medical, dental, nutrition, and mental health services. Great Brook provides
these services primarily to residents of Worcester and Framingham, Massachusetts, and
surrounding communities.



                                                2
Great Brook is funded primarily through HRSA grants, Medicaid, Medicare, State grants, and
third-party payors. During FY 2009, HRSA awarded Great Brook a 2-year Recovery Act grant
totaling $417,643 for increases in health care services at its existing sites.

OBJECTIVE, SCOPE, METHODOLOGY

Objective

Our objective was to determine whether Great Brook’s processes for compiling and reporting
selected data provided reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.

Scope

Our review covered recipient data submitted during the second and third reporting periods. The
second reporting period covered October 1 through December 31, 2009, and the third reporting
period covered January 1 through March 31, 2010. We reviewed Great Brook’s processes in
compiling and reporting Recovery Act data elements for the second reporting period and the
actions taken to enhance data quality for the third reporting period. Specifically, we selected the
data elements for jobs created, funds received, funds expended, project status, and final project
report indicator to ensure compliance with section 1512 requirements of the Recovery Act. To
gain an understanding of Great Brook’s compiling and reporting of Recovery Act data elements,
we conducted a limited review of the internal controls related to our audit objective.

We performed our fieldwork at Great Brook’s administrative office in Worcester, Massachusetts,
during May 2010.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed Great Brook’s HRSA Increased Demand for Services (IDS) 3 grant application
        and award;

    •   reviewed Great Brook’s Recovery Act reported data elements and comments reported on
        www.federalreporting.gov;

    •   interviewed personnel to gain an understanding of Great Brook’s Recovery Act reporting
        processes;




3
 The IDS award made available by the Recovery Act supports health centers in addressing the increased demand for
services nationwide, as well as creating employment opportunities in underserved communities over a 2-year period.

                                                        3
   •   performed analytical procedures to determine the reasonableness of the reported data
       elements when compared with supporting documentation for expenditures and funds
       received;

   •   reconciled the number of jobs created to payroll records to determine the reasonableness
       of the number of jobs reported; and

   •   discussed our findings with Great Brook’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMENDATIONS

Great Brook’s processes for reporting the selected data elements in the second and third
reporting period generally provided reasonable assurance that it complied with section 1512
requirements of the Recovery Act. Specifically, Great Brook accurately reported funds
expended, project status, and the final project report indicator. However, Great Brook:

   •   overstated the number of jobs created by 10.71 full-time equivalents (FTE) in the second
       reporting period by inappropriately counting individuals partially funded by the grant as a
       full FTEs;

   •   miscalculated its jobs number by 0.79 FTE in the third reporting period by inconsistently
       applying fringe benefit costs to the jobs calculation; and

   •   understated funds received by $113,045 in the third reporting period by reporting on a
       quarterly basis instead of cumulatively.

These deficiencies occurred because Great Brook did not use the most recent edition of HRSA’s
Health Center Quarterly Reporting Manual (the reporting manual). Specifically, Great Brook
used the second edition of the reporting manual, which was issued on September 14, 2009,
instead of the third edition, which was issued on December 1, 2009, and updated on December
29, 2009. Great Brook did not review the revised guidance, nor did it realize it was providing
inaccurate jobs data until the third-period conference call with HRSA.

While Great Brook had processes for gathering and reviewing data elements before submitting
data to www.federalreporting.gov, Great Brook did not have written policies and procedures for
reporting the data elements in accordance with the Recovery Act requirements. The processes
were also not designed to detect errors caused by following guidance not applicable to the
reporting period.



                                                4
As a result, Great Brook overstated the number of jobs created for the second period and
inaccurately reported the jobs number and funds received for the third period. The reporting
errors could have resulted in the public being misled or confused by Great Brook’s use of
Recovery Act funds.

DATA ELEMENTS REPORTED

Recovery Act Reporting Requirements

OMB memorandum M-09-21, section 2.5, states that all data contained in each quarterly
recipient report will be cumulative to encompass the total amount of funds expended to date.
However, OMB later issued memorandum M-10-08 allowing for recipients to report job estimate
information on a quarterly basis, rather than a cumulative one.

OMB memorandum M-10-08 states that the estimated number of jobs created should be
expressed as FTEs. Specifically, OMB memorandum M-10-08 states that in calculating an FTE,
the number of actual hours worked in funded jobs are divided by the number of hours
representing a full work schedule for the kind of job being estimated. These FTEs are then
adjusted to count only the portion corresponding to the share of the job funded by Recovery Act
funds. All other reporting elements continue to be reported cumulatively.

HRSA’s third edition of the reporting manuals restates OMB’s guidance that FTEs will be
reported only to the extent that Recovery Act funds are used.

Data Elements Accurately Reported

Great Brook was in compliance with OMB and HRSA guidance in the reporting of second
period data elements for funds received, funds expended, project status, and final project report
indicator. Specifically, Great Brook accurately reported $113,045 of funds received and
expended, and it reported the IDS grant project status as 50 percent or more completed 4.
Therefore, Great Brooks correctly reported the final project indicator as “not completed.”

Data Elements Inaccurately Reported

Overstated the Number of Jobs Created for the Second Reporting Period

Great Brook overstated the number of jobs created by inappropriately counting individuals
partially funded by the IDS grant as full FTEs. Specifically, Great Brook took the actual hours
worked during the payroll quarter and divided it by the number of hours representing a full work
schedule. Great Brook’s methodology in calculating the second period jobs number was
inconsistent with OMB and HRSA updated guidance to report only the share of the job funded
by Recovery Act funds. As a result, Great Brooks overstated the number of jobs reported by
10.71 FTEs (14.97 FTEs reported less 4.26 FTEs that should have been reported).


4
 Even though Great Brook only expended 27 percent of funds, it calculated project status based on the number of
positions filled (94 percent). However, Federal guidance is silent on how project status is calculated.

                                                        5
Miscalculated the Number of Jobs Created for the Third Reporting Period

Great Brook miscalculated the number of jobs created by inconsistently applying the fringe
benefit costs in its jobs calculation. Specifically, Great Brook had revised its methodology in
calculating FTEs to include only the share of the jobs funded with Recovery Act funds.
However, the calculation included the portion of the related fringe benefits without including the
fringe benefit in the employee hourly pay rate. As a result, Great Brook overstated the number
of jobs reported by 0.79 FTE (4.33 FTEs reported less 3.54 FTEs that should have been
reported).

Understated Funds Received for the Third Reporting Period

Great Brook incorrectly reported funds received based on a quarterly basis rather than
cumulatively for the third reporting period. Great Brook changed its methodology for the
reporting of funds received to coincide with the reporting of jobs estimates on a quarterly basis.
Specifically, Great Brook calculated and reported the amount of funds received based on its
quarterly draw downs for the third reporting period. As a result, Great Brook understated funds
received by $113,044 ($90,343 reported less $203,388 that should have been reported).

Conclusion

Great Brook senior officials had implemented a review process for gathering and reviewing data
elements before submitting data to www.federalreporting.gov. However, the process did not
ensure that reported Recovery Act data elements complied with OMB guidance, and
management did not always follow current guidance when reporting specific data elements. Our
review of Great Brook’s process, policies, and procedures noted the following weaknesses:

       •   Great Brook’s process of calculating the number of jobs did not include a breakdown
           of the employees’ salaries funded by the grant; therefore, newly hired employees
           partially funded by the grant were counted as full FTEs instead of being counted
           proportionally based on the employees’ salaries funded by the grant.

       •   Great Brook did not have policies and procedures in place to ensure that the most
           up-to-date reporting guidance was used (e.g., searching the OMB Web site).

       •   Great Brook did not establish or implement automated data quality checks, nor
           perform analytical procedures as stipulated in OMB guidance. Although Great Brook
           senior officials reviewed data elements submitted to the Federal agency, there were
           no procedures to ensure that data elements reported were reasonable. Specifically,
           Great Brook did not realize that the ratio of total amount of award to the total number
           of jobs reported showed an average wage of less than minimum wage.

Great Brook informed us that HRSA also questioned the number of jobs reported in the second
reporting period. In its comments to Great Brook on www.federalreporting.gov, HRSA referred
Great Brook to updated guidance and requested that it either revise or explain its jobs number.
Great Brook responded that most of the staff hired or to be hired is or will be generating revenue

                                                 6
not covered by the IDS award. According to Great Brook officials, Great Brook did not review
the revised guidance, nor did it realize it was providing inaccurate jobs data until the third-period
conference call with HRSA.

The reporting errors could have resulted in the public being misled or confused by Great Brook’s
use of Recovery Act funds.

RECOMMENDATIONS

We recommend that Great Brook:

   •   establish and implement written policies and procedures in compiling and reporting of
       Recovery Act data elements,

   •   follow current HRSA guidance that incorporates OMB reporting guidance, and

   •   ensure that similar errors are not made in subsequent reporting periods.

GREAT BROOK COMMENTS

In written comments on our draft report, Great Brook indicated that it will comply with our
recommendations. Great Brook’s comments are included in their entirety as the Appendix.




                                                  7
APPENDIX
                          APPENDIX: GREAT BROOK'S COMMENTS
                                                                                                    Page 1 of 1




July 7/2016



Michael J. Abnstrong
Office of Ali,dit Services, Region 1
Johti F. Kenrtedy Federal Building
Rodm2425                          .
Boston, MA 02203

Deal' Mr. Armstrong,

I am in receipt of the Department ofHealth and Human Services, Office ofInspector General, Results of
Limited Scope Review at Great Brook Valley Health Center, Inc.'s Process for Compiling and Reporting
Recdvery Act Data draft report.

On behalf ot:Great Brook Valley Health Center, Inc,. I accept this draft report and acknowledge that
we will comply with the recommendations as discussed. We take this work very seriously and we
have accordingly made changes within our organization that reflect the most current HRSA
gUidance available .. Additionally, we are in the process of hiring a full time Compliance Officer to
ovetsee all quality checks within the organization.

Respectfully;


 ~.1---            a m/futW
Anto.nia G. ~CGU01 RN M~¥1. -­
PreSIdent and ChIef ExecutIve Officer


cc: 	   Matt Hogan, Chairman, Great Brook Valley Board of Directors
        Geotge Nedder, Office of Inspector General, Audit Manager




                                   Working together for the health ofour community 


                       Administrative Offices. 2000 Century Drive. Worcester, MA 01606 

                 (508) 854-2122.   FAX   (508) 853-8593 •    TTY   (800) 439-0183 • www,gbvhc.org
